Harper, Rains, Stokes & Knight, P.A.




                        Agreed-Upon Procedures on the
                   Ohio Department of Job and Family Services
                         Year 2000 Grant Expenditures




                                    FINAL REPORT




    This Agreed Upon Procedures Report was performed by the Accounting Firm of
    Harper, Rains, Stokes & Knight, P.A. under contract to the U.S. Department of
    Labor - Office of Inspector General, and, by acceptance, it becomes a report of the
    Office of Inspector General.


                                         Assistant Inspector General for Audit




                                                         Report Number: 04-01-006-03-315
                                                         Date Issued: September 21, 2001
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


                                             TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION AND PRINCIPAL CRITERIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING
AGREED-UPON PROCEDURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

OBJECTIVE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

RESULTS OF AGREED-UPON PROCEDURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          STAFF AND ASSOCIATED COSTS OF $342,187
          WERE IMPROPERLY CHARGED TO THE Y2K GRANTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

         MAINTENANCE AGREEMENTS OF $200,845
         WERE CHARGED TO THE Y2K GRANTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         ROUTINE OPERATING EXPENSES OF $50,868
         WERE CHARGED TO THE Y2K GRANTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         PURCHASES TOTALING $491,383 WERE
         NOT NECESSARY FOR Y2K READINESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ATTACHMENT 1 - OHIO Y2K EXPENDITURES

ATTACHMENT 2 - DETAIL OF FINDINGS

ATTACHMENT 3 - COMPARISON OF STATE/ FEDERAL FUNDING
               OF THE UNEMPLOYMENT COMPENSATION PROGRAM




Harper, Rains, Stokes & Knight, P.A.                                                                                              ii
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


                                       ACRONYMS


DOL            U.S. Department of Labor

ES             Employment Service

ETA            Employment and Training Administration

FM             Unemployment Insurance Field Memoranda

FY             Fiscal Year

IV & V         Independent Verification and Validation

OBES           Ohio Bureau of Employment Services

JTPA           Job Training Partnership Act

ODJFS          Ohio Department of Job and Family Services

OIG            Office of Inspector General

SBR            Supplemental Budget Request

SESA           State Employment Security Agency

SOF            Statement of Fact

UI             Unemployment Insurance

UIPL           Unemployment Insurance Program Letters

Y2K            Year 2000




Harper, Rains, Stokes & Knight, P.A.                                       iii
    Agreed-Upon Procedures on the Ohio Department of Job and Family Services
    Year 2000 Grant Expenditures


                                     EXECUTIVE SUMMARY


    During Fiscal Years (FY) 1998 and 1999, Congress appropriated funds to help State Employment
    Security Agencies (SESAs) make their automated Unemployment Insurance (UI) and
    Employment Service (ES) systems Year 2000 (Y2K) compliant. The U.S. Department of Labor
    (DOL), Employment and Training Administration (ETA) awarded the Ohio Bureau of
    Employment Services (OBES), now part of the Ohio Department of Job and Family Services
    (ODJFS), grants totaling $13,329,257 from funds available for Y2K readiness.

    Although ODJFS received Y2K grants totaling $13,329,257, they reported costs totaling
    $13,340,485 to ETA. The engagement staff examined expenditures of $13,340,485 made by
    ODJFS, from inception of the grants through September 30, 2000. Our engagement objective
    was to determine whether Y2K funds were spent for intended purposes, in conformity with the
    grant agreements and applicable Federal requirements.

    We found ODJFS did not always comply with requirements governing the use of the funds. Our
    findings totaling $1,085,2831 are presented below:

           •       $342,187 of staff salary, fringe benefit and allocated charges that did not satisfy
                   criteria for reimbursement as Y2K expenditures;

           •       $200,845 of maintenance agreements which were not necessary for Y2K
                   compliance;

           •       $50,868 of expenditures were for routine operating expenses not related to Y2K
                   compliance; and

           •       $491,383 for system enhancements not directly related to Y2K compliance.


    We recommend the Assistant Secretary for Employment and Training recover grant expenditures
    totaling $1,085,283, related to the findings identified.




1
 Subsequent to issuance of the draft report ODJFS provided documentation reducing questioned costs from
$3,224,642 to $1,085,283. Documentation related to unsupported or unreconcilable costs and hardware costs that
could not be physically observed.

    Harper, Rains, Stokes & Knight, P.A.
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


ODJFS’ COMMENTS

ODJFS did not provide a formal response to the draft report; however, subsequent to issuing our
draft report, they did provide additional information that we were able to use to remove findings
of $2,630,486 in unsupported or unreconcilable costs and $69,782 in hardware costs that could
not be physically observed. Upon review of the unsupported items provided, we questioned an
additional $69,526 in maintenance costs and allowed an additional $70,194 that had been
questioned as system enhancements.


OUR CONCLUSION

Based on the additional information provided by the ODJFS, we recommend the Assistant
Secretary for Employment and Training recover grant expenditures totaling $1,085,283, as
previously enumerated.




Harper, Rains, Stokes & Knight, P.A.                                                                2
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


                 INTRODUCTION AND PRINCIPAL CRITERIA


                                 In FY 1998 concerns with the approach of Y2K and the potential
ORIGIN AND PURPOSE              for problems with automated systems prompted Congress to
OF Y2K FUNDS
                                provide State Employment Security Agencies (SESAs) with grants
                                that totaled $200 million. The funds were to help ensure SESAs’
                                automated UI and ES systems were Y2Kcompliant.

ETA distributed base funding of $1 million to each of the 53 SESAs. In addition to base funding
of $53 million, ETA awarded $9,540,000 ($180,000 to each SESA) to develop business
continuity or contingency plans, in the event of Y2K-related shutdowns of critical UI and ES
systems, or for independent verification and validation (IV & V) of Y2K compliance measures.
During FY 1998, each SESA was also afforded the opportunity to request additional funds for
specific Y2K needs, through Supplemental Budget Requests (SBRs). The SBRs detailed specific
Y2K-related needs for which the funds were requested. The SBRs were evaluated by a panel
consisting of ETA staff, and the funds were awarded based upon what the panel judged were
“reasonable and allowable” costs.

In Fiscal Year 1999, ETA reprogrammed an additional $50 million of UI contingency funds to
address the SESAs’ Y2K needs. The funds were awarded to the SESAs through SBRs. ETA
required the SESAs to demonstrate a “compelling need” for the funds to be considered for the FY
1999 awards.

                                        ODJFS received a total of $13,329,257, in Y2K grant
Y2K FUNDS PROVIDED TO OHIO
                                       funds, from ETA.

In FY 1998, ETA distributed Y2K base and IV & V funds of $1,180,000 to ODJFS. Also in FY
1998, ODJFS received additional Y2K grants of $9,176,766 through the SBR mechanism.
During FY 1999, ETA awarded an additional $2,972,491 in Y2K funds which ODJFS had
requested in two separate SBRs.

                                       ETA Field Memorandum 50-97, dated August 4, 1997,
PRINCIPAL CRITERIA
                                       provided the following guidance for the use of FY 1998
                                       Y2K funds:

       The Y2K Compliance projects for which funds are received must focus on
       activities relating to Year 2000 conversion efforts, the replacement or upgrading
       of systems, systems interfaces, and/or software products necessary to ensure Y2K
       compliance, or replacing or upgrading computer hardware that is not Y2K

Harper, Rains, Stokes & Knight, P.A.                                                              3
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


       compliant and that will adversely impact system or program performance if not
       replaced or upgraded.

       Costs incurred by SESA base funded staff assigned to the project on a temporary
       basis cannot be funded by the Y2K grant; however overtime costs are allowable.
       Any staff costs must be for additional staff, not previously funded by the SESAs
       base grant, or for overtime applied to Y2K activities performed by technical staff
       or program personnel.

       . . .SESAs are required to include a separate entry for Y2K expenditures in the SF
       269 comment section and to maintain documentation supporting all charges to
       Y2K automation efforts as part of the regular reporting process for Base
       Expenditures.

       SESAs which receive a supplemental Y2K conversion grant and subsequently
       determine that other hardware or software is more suitable may elect to substitute
       the more suitable product contingent upon adequately documenting the
       appropriateness of the substituted purchase and obtaining the agreement of the
       Regional and National Offices.

Guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 3-99, dated October 13, 1998:

       The Y2K funds received must be used only for activities relating to Y2K
       compliance efforts, including replacement or upgrading of systems, systems
       interfaces, and/or software products which will adversely impact system or
       program performance if not replaced or upgraded.

       FY 1999 Y2K funds are intended to meet those identified immediate requirements
       of those SESAs which, in the absence of these additional funds, are unlikely to
       achieve Y2K compliance of their employment security automated systems. Thus,
       compelling need is the primary criterion which will be used in evaluating SBRs.
       Additionally, the SESA must demonstrate that the funds will materially assist the
       SESA in achieving its Y2K compliance goals.

       Costs incurred by SESA base funded staff assigned to the project on a temporary
       basis cannot be funded by the Y2K grant; however overtime costs are allowable.
       Any staff costs must be for additional staff, not previously funded by the SESAs
       base grant, or for overtime applied to Y2K activities performed by technical staff
       or program personnel.

Harper, Rains, Stokes & Knight, P.A.                                                        4
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures



       . . .SESAs are required to include a separate entry for Y2K expenditures in the SF
       269 comment section and to maintain documentation supporting all charges to
       Y2K automation efforts as part of the regular reporting process for Base
       Expenditures.

Guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 47-99, dated July 14, 1999:

       These funds may not be applied to base staff positions or to support staffing
       positions otherwise covered by base grants, or to on-going maintenance activities
       or to on-going communications.

       Funds allocated for Y2K can only be used for activities or purchases relating to
       Y2K compliance efforts, including replacement or upgrading of systems, systems
       interfaces, and/or software products that, if not repaired or replaced, would
       adversely impact the UI program.

       These funds cannot be applied to purchases of personal computers (PCs),
       peripheral devices (printers, modems, monitors, etc.) or PC-based office support
       applications such as electronic mail, spreadsheets, or word processors.

       These Y2K funds are intended to meet those identified immediate requirements of
       SESAs which, in the absence of these funds, are unlikely to achieve Y2K
       compliance of their UI automated systems.

       Funds granted through this process must be applied expressly to those cost items
       presented within the SBR including any clarifications or stipulations made by the
       review panel. State agencies that wish to redirect funds from an approved cost
       item must request such changes through the Regional Office and must receive
       advance written approval from the National Office. Funds redirected without
       such approval are subject to recapture or audit exception.

The “Executive Summary” of ETA’s “Year 2000 SBR Review Panel’s Briefing Package” stated
that SESAs should prioritize their spending to best meet their own critical needs, and that ETA
Regional Offices should:

       . . .strongly encourage the SESAs to initially concentrate their efforts and
       resources on making UI Benefits systems compliant, as they are mission critical
       and will be the first to fail. Before funds are spent on PC upgrades and
       replacements, mission critical systems need to be converted and tested for
       compliance.”

Harper, Rains, Stokes & Knight, P.A.                                                              5
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


                         Harper, Rains, Stokes and Knight, P.A.
                                    One Hundred Concourse
                                 1052 Highland Colony Parkway
                               Highland Colony Parkway, Suite 100
                                  Ridgeland Mississippi, 39157


Mr. John J. Getek
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
200 Constitution Ave, N.W., Suite S5022
Washington, D.C. 20210


                  INDEPENDENT ACCOUNTANTS’ REPORT
                 ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described in the engagement program provided by the DOL,
OIG, which were agreed to by the OIG, solely to assist in evaluating the State of ODJFS’
compliance with the terms and provisions of the Y2K grants as noted in the Unemployment
Insurance Field Memoranda and Program Letters.

This agreed-upon procedures engagement was performed in accordance with attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States.

The sufficiency of these procedures is solely the responsibility of the OIG. Consequently, we
make no representation regarding the sufficiency of the procedures described in the engagement
program, either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are enumerated in the Results of Agreed-Upon Procedures section
of this report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on ODJFS’ compliance assertion on its utilization of the funds
granted by ETA. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.




Harper, Rains, Stokes & Knight, P.A.                                                             6
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


This report is intended solely for the use of the OIG and should not be used by those who have
not agreed to the procedures and taken responsibility for the sufficiency of the procedures for
their purposes.



Harper, Rains. Stokes & Knight, P.A.
Ridgeland, Mississippi
September 20, 2001




Harper, Rains, Stokes & Knight, P.A.                                                              7
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


                   OBJECTIVE, SCOPE AND METHODOLOGY


The primary objective of this engagement was to determine whether funds designated for Y2K
compliance were spent for intended purposes, in compliance with grant provisions and other
applicable Federal criteria.

We examined Y2K grant funds received and the corresponding expenditures of the funds by
ODJFS during the period October 1, 1997 through September 30, 2000. We reviewed the
Supplementary Budget Request and financial status reports, interviewed state officials and
reviewed financial records and other documentation related toY2K conversion expenditures.

ODJFS received a total of $13,329,257 from ETA for Y2K compliance activities, all of which
were expended as of September 30, 2000.

The engagement was conducted in accordance with agreed upon procedures developed by the
U.S. Department of Labor, Office of the Inspector General and found in the DOL-OIG
Engagement Guide–Y2K SESA Spending and included such tests the OIG considered necessary to
satisfy the objectives of the engagement. The agreed-upon procedures engagement (AUP) was
also performed in accordance with Government Auditing Standards, issued by the Comptroller
General of the United States

Our review of internal controls was limited to those controls related to the FY 1998 and FY 1999
Y2K funds. We did not evaluate ODJFS’ general operational internal controls over non-Y2K
funds. Our AUP was conducted for the sole purpose of determining if ETA’s requirements for
the use of Y2K funds had been followed. The expenditures reported by ODJFS as included in the
attachment of this report were the sole source of transactions selected for compliance testing.
Fieldwork began in March 2001 and continued through June 2001.




Harper, Rains, Stokes & Knight, P.A.                                                           8
    Agreed-Upon Procedures on the Ohio Department of Job and Family Services
    Year 2000 Grant Expenditures


                      RESULTS OF AGREED-UPON PROCEDURES


    Although ODJFS avoided interruption of ES and UI services, it did not always adhere to ETA’s
    requirements governing the use of Y2K funds. We identified grant expenditures, totaling
    $1,085,2832 that were not in accordance with Y2K grant requirements. For purposes of
    discussion, we have classified those expenditures into the following categories:

           •       $342,187 of staff salary, fringe benefit and allocated charges that did not satisfy
                   criteria for reimbursement as Y2K expenditures;

           •       $200,845 of maintenance agreements which were not necessary for Y2K
                   compliance;

           •       $50,868 of expenditures for routine operating expenses not related to Y2K
                   compliance; and

           •       $491,383 for system enhancements not directly related to Y2K compliance.


                                                  ODJFS improperly charged $342,187 in staff salary,
    STAFF AND ASSOCIATED COSTS
                                                  fringe benefit and associated allocations to the Y2K
    OF $342,187 WERE IMPROPERLY
                                                  grants. We have questioned $295,446 of staff salary and
    CHARGED TO THE Y2K GRANTS
                                                  fringe benefit costs. In addition, we questioned $46,741
                                                  in costs allocated to the Y2K grants and based on direct
                                                  labor dollars expended in each cost category.

    The DOL provides all SESAs annual appropriations to pay the costs of administering ES and UI
    activities. Annual appropriations include monies for “base-funded” personal service and benefit
    costs. ETA established restrictions on how Y2K funds could be spent, to ensure Y2K grant funds
    were used to pay the additional costs of staff working on Y2K-related problems, and to prevent
    Y2K funds from being used to supplant the cost of base-funded activities.

    To that end, ETA required that personnel costs charged to theY2K grants be only for the
    overtime costs of base-funded staff, or for the salaries of additional staff (in excess of base-funded
    levels) hired to work on critical Y2K-related problems. However, ODJFS did not comply with
    this requirement and charged $295,446 of base-funded staff salaries and benefit costs to the Y2K
    grants. Based on the State’s procedures for allocation of administrative overhead, the Y2K grants


As discussed in the “Executive Summary” of this report, ODJFS provided documentation reducing
2

questioned costs from $3,224,642 to $1,085,283.

    Harper, Rains, Stokes & Knight, P.A.                                                                 9
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


were charged a percentage of administrative overhead costs, based on direct labor hours used on
each activity. This allocation totaled $46,741.

ETA Field Memorandum Number 50-97, dated August 4, 1997, discusses SESA’s compliance
activities related to Y2K funding. Under Staff Needs, at Section 6, SBR Proposal Format and
Instructions, ETA states:

       Costs incurred by SESA base funded staff assigned to the project on a temporary
       basis cannot be funded by the Y2K grant; however overtime costs are allowable.
       Any staff costs must be for additional staff, not previously funded by the SESAs
       base grant, or for overtime applied to Y2K activities performed by technical staff
       or program personnel.

ETA reiterated an identical requirement in Field Memorandum 3-99, dated October 13, 1998,
concerning staff charging time to FY 1999 Y2K grants funded through SBRs. Also, ETA Field
Memorandum 47-99, dated July 14, 1999, provided additional guidance on staff charges to FY
1999 SBRs:

       These funds may not be applied to base staff positions or to support staffing
       positions otherwise covered by base grants, or to on-going maintenance activities
       or to on-going communications.


ODJFS’ COMMENTS

ODJFS did not provide a response to our draft report. However, in previous communication on
the issue, ODJFS indicated they considered the questioned base-funded salary and associated
costs allowable, because, for several years, they have used State funds to pay for a portion of UI
and ES staff salaries. Therefore, they contend the salaries and benefits charged to the Y2K grants
were not base-funded salaries.

In ODJFS’ response to our finding related to improperly charging base-funded salaries to the
Y2K grants the following was provided:

       The state ran all cost for the Y2K effort through project code 2213. This project
       code rolled into fund ledger 2210 in the FARS system. This was done to
       accommodate USDOL requirements that we be able to document the cost
       assigned to the Y2K dollars. The State of Ohio has been supporting the UI
       program with state funds most years going back to the late 1980s due to the under
       funding of the program by the federal government. The sources of the money were
       Penalty and Interest, a UI Surcharge tax on employers, and State General
       Revenue. For each year of the Y2K funded activities the state contributed

Harper, Rains, Stokes & Knight, P.A.                                                           10
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


       between $15.0 and $18.0 million of state funds to support the state’s operation of
       the UI program.

       The dollars cited by the auditors as improperly charged to the Y2K funds total
       approximately $474,042 in both direct and indirect charges for salaries. This
       would have been approximately 7.47 FTEs based on the IT average salary per
       position of $63,493 (Source of average cost is FARS Report GA 13).

       Ohio admits that there were no new hires on this. However, Ohio did a
       comparison [See Attachment 3 of this report] of FTEs charged to the total
       operation of the program compared to the funded FTEs per the USDOL Annual
       Final Target Reports. The report shows that Ohio paid more than 200 direct
       FTEs and between 18.9 and 63.3 indirect FTEs above the USDOL base funded
       FTEs. As stated earlier, this was made necessary by the continuous under
       funding of the program by the federal government. Ohio’s contention is that
       these charges were covered by state funds and therefore not subject to
       disallowance.


OUR CONCLUSION

As noted in the document entitled “Y2K Supplemental Budget Request” dated October 28, 1997,
the ODJFS requested a budget for OBES’ non-UI Y2K staff. This request indicates an
understanding by the State that salaries charged to the Y2K grant were not to be UI staff (base
funded).

ODJFS’ response indicates the salaries charged to the grants were UI personnel and not new
hires. The information provided for our review did not include evidence that ODJFS requested a
change to their SBR to include UI personnel or a means to identify those salaries charged to the
grants that were not in fact base-funded. As noted above, ETA established restrictions on how
Y2K funds could be spent, to ensure Y2K grant funds were used to pay the additional costs of
staff working on Y2K-related problems, and to prevent Y2K funds from being used to supplant
the cost of base-funded activities.




Harper, Rains, Stokes & Knight, P.A.                                                          11
    Agreed-Upon Procedures on the Ohio Department of Job and Family Services
    Year 2000 Grant Expenditures


                                                            ODJFS purchased maintenance agreements
     MAINTENANCE AGREEMENTS OF $200,845                     totaling $200,8453, from Y2K grant funds,
     WERE CHARGED TO THE Y2K GRANTS                         that were not necessary for Y2K
                                                            preparedness. Details of the maintenance
                                                            agreements are included as Attachment 2, Part
                                                            2.             .

    ETA Field Memorandum No. 50-97, dated August 4, 1997, provided that Y2K funds were to be
    used for:

           . . .activities relating to Year 2000 conversion efforts, the replacement or
           upgrading of systems, systems interfaces, and/or software products necessary to
           ensure Y2K compliance, or replacing or upgrading computer hardware that is not
           Y2K compliant and that will adversely impact system or program performance if
           not replaced or upgraded.

    ETA Handbook No. 336, page I-19, item C.1.b provides:

           Unallowable Costs. SBR funds may not be used for ongoing costs, such as
           maintenance of software and hardware, . . .

    Also, ETA Field Memorandum No. 47-99, dated July14, 1999, provided that Y2K funds can not
    be used for “ongoing maintenance activities.”


    ODJFS’ COMMENTS

    ODJFS did not provide a response.


    OUR CONCLUSION

    As part of the information provided by ODJFS to remove the unsupported or
    unreconcilable costs, an additional charge of $69,526 was determined to be an
    unallowable maintenance agreement. Consequently, we question a total of $200,845 in
    maintenance agreements that were not necessary for Y2K compliance.



3
  In our draft report, we questioned $131,319 related to maintenance contracts. This category of questioned costs
has increased by $69,526, as a result of ODJFS providing documentation that identified previously unsupported Y2K
grant charges as maintenance agreements costs.

    Harper, Rains, Stokes & Knight, P.A.                                                                      12
    Agreed-Upon Procedures on the Ohio Department of Job and Family Services
    Year 2000 Grant Expenditures


                                                             ODJFS charged $50,868 to the Y2K
    ROUTINE OPERATING EXPENSES OF $50,868
                                                             grants for routine operating expenses
    WERE CHARGED TO THE Y2K GRANTS
                                                             not directly related to Y2K-readiness
                                                             activities.

    Field Memoranda 50-97, dated August 4, 1997, and 3-99, dated October 13, 1998, each provide:

           . . .activities relating to Year 2000 conversion efforts, the replacement or
           upgrading of systems, systems interfaces, and/or software products necessary to
           ensure Y2K compliance, or replacing or upgrading computer hardware that is not
           Y2K compliant and that will adversely impact system or program performance if
           not replaced or upgraded.

    ODJFS used Y2K grants to purchase tape cartridges, toner cartridges, and
    “write-once” optical disks that we believe are not considered “necessary to ensure Y2K
    compliance.” Rather, the items are routine operating supplies. Attachment 2, part 2
    provides a detailed listing of the items we have questioned.


    ODJFS’ COMMENTS

    ODJFS did not provide a written response.


    OUR CONCLUSION

    We recommend recovery of $50,868 associated with this finding.


                                                            ODJFS made purchases totaling
     PURCHASES TOTALING $491,383 WERE                       $491,3834 for the UC Tax Department
     NOT NECESSARY FOR Y2K READINESS                        that were system enhancements, not
                                                            necessary for Y2K readiness.




4
  We questioned $561,577 as unnecessary enhancements in our draft report. Questioned costs associated with this
issue have been reduced by $70,194. The reduction resulted from ODJFS providing documentation for
enhancements previously believed to have been charged to the Y2K grants that had in fact been charged to the
another department.



    Harper, Rains, Stokes & Knight, P.A.                                                                      13
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


The purpose of the Y2K grant monies was to ensure all facets of the UI/ES systems
would be Y2K ready. The money was not intended to be a windfall for enhancing
systems capabilities.

ODJFS received grant money from ETA to make the UC Tax system Y2K compliant,
which ODJFS accomplished. However, grant funds of $491,383, intended solely for
Y2K readiness, were used to enhance the UC Tax Division’s automated system’s
capabilities and expanded user capacity.

Guidance on the use of FY 1999 Y2K supplemental funding was included in ETA Field
Memorandum 3-99, dated October 13, 1998:

       The Y2K funds received must be used only for activities relating to Y2K
       compliance efforts, including replacement or upgrading of systems, systems
       interfaces, and/or software products which will adversely impact system or
       program performance if not replaced or upgraded. . .

       FY 1999 Y2K funds are intended to meet those identified immediate requirements
       of those SESAs which, in the absence of these additional funds, are unlikely to
       achieve Y2K compliance of their employment security automated systems.



ODJFS’ COMMENTS

The ODJFS did not provide a written response.


OUR CONCLUSION

We recommend recovery of $491,383 associated with this finding..




Harper, Rains, Stokes & Knight, P.A.                                                     14
Agreed-Upon Procedures on the Ohio Department of Job and Family Services
Year 2000 Grant Expenditures


                               RECOMMENDATIONS


Based on the results of the agreed-upon procedures, we recommend the Assistant
Secretary for Employment and Training recover grant expenditures, totaling $1,085,283.
Such grant expenditures include:

        •       $342,187 in staff salary, fringe benefit and associated allocations that did
                not satisfy the criteria for reimbursement from the Y2K grants;

        •       $200,845 in maintenance agreements which were not necessary for Y2K
                compliance;.

        •       $50,868 of expenditures were for routine operating expenses not related
                to Y2K compliance; and

        •       $491,383 expended for system enhancements not directly related to Y2K
                compliance.




Harper, Rains, Stokes & Knight, P.A.                                                           15
                                                    ATTACHMENT 1

                            OHIO Y2K EXPENDITURES
DESCRIPTION                                                    CHARGES
Direct Personnel                                        $      324,679

AS&T Personnel                                                  24,111

Direct Personnel Benefits                                       83,778

AS&T Personnel Benefits                                          8,377

Direct Supplies                                                 16,314

AS&T Supplies                                                    1,570

Direct Communications                                                4

AS&T Communications                                                566

AS&T Postage                                                       (96)

AS&T Travel                                                        603

AS&T Equipment Rent                                                (66)

Direct Equipment Expenses                                     106,055

AS&T Equipment Expenses                                          2,245

Direct Premises Rent                                             2,324

AS&T Premises Rent                                                629

Direct Premises Expenditures                                    57,739

AS&T Premises Expenditures                                       1,639

Direct Services                                             11,216,813

AS&T Services                                                    1,344

AS&T Others                                                      1,593

Direct Capital Purchases                                     1,486,417

AS&T Capital Purchases                                           4,227

Direct Adjustment                                                 (380)

TOTAL                                                   $13,340,485
                                                                                              ATTACHMENT 2

                                         DETAILS FOR FINDINGS

1.        $200,845 OF MAINTENANCE AGREEMENTS:

Trans.     Primary                            Invoice            Invoice
Date       Ref.           Vendor              Number             Date             Charges

2/23/00    94309702       UNISYS              12523606           2/11/00      $     8,495
2/23/00    94309702       UNISYS              21605602           2/2/00           100,428
12/6/99    H00341         Dakota Image        99246              10/5/99             1,163
12/6/99    H00341         Dakota Image        99248              10/8/99              3,306
1/31/98    R00698         UNISYS              807970001          2/1/98             13,431
12/3/99    94309701       UNISYS              67865003c          10/20/99             4,496
11/15/99   G0108402       Dakota Image        99247              10/05/99           69,496

TOTAL MAINTENANCE AGREEMENTS                                                  $ 200,845



2.         $50,868 OF EXPENDITURES WERE FOR ROUTINE OPERATING EXPENSES :

Trans.     Primary                            Invoice      Invoice
Date       Ref.           Vendor              Number       Date               Charges

11/1/99    94309702       UNISYS              67865003A    8/18/99            $ 34,980*
11/1/99    H00334         EMCAL               N/A          N/A                   8,000
                          EMCAL               33938        9/30/99
                          EMCAL               33953        10/5/99
                          EMCAL               33959        10/5/99
                          EMCAL               33973        10/13/99
2/17/98 R01148            Systems Supply      152332       2/6/98                  6,814
10/20/99 H00394           EMCAL               33957        10/7/99                 1,074

TOTAL ROUTINE OPERATING SUPPLIES                                                           $ 50,868

* This item is made up of two line items from an invoice totaling $260,558.
                                                                   ATTACHMENT 3

        COMPARISON OF STATE/ FEDERAL FUNDING OF THE
          UNEMPLOYMENT COMPENSATION PROGRAM

                        (Table ODJFS Provided in Support of
                            Their Position That Questioned
                     Salary And Related Costs Should Be Allowed)



         UNEMPLOYMENT COMPENSATION PROGRAM STATISTICS


                                   2000       1999        1998         1997

      Average annual
a     FTE’s Charged to 2210
      from GA-17, Sept 30          1,329.8    1,337.7     1,357.5      1,331.6

b     DOL base allocation          1,253.5    1,218.0     1,304.7      1,254.8
c     minus shortfall assess .     ( 163.0)   ( 106.7)    ( 203.4)     ( 147.6)
d     Funded base alloc.           1,090.5    1,111.3     1,101.3      1,107.2

e     State funded UI FTE’s         239.2      226.4       256.1        224.4

      BES PS/PB average
f       cost per FTE               $52,086    $49,738     $48,299      $46,846

g     DOL AS&T rates               $47,451    $46,521     $45,609      $44,453

h     DOL Supt/AS&T allocation       316.3      305.9      325.4         229.5

i     DOL funded Supt/AS&T           275.2      279.1      274.7         202.5

j     BES AS&T FTE’s                 317.0       306.1     293.6         265.8

k     State funded UI AS&T FTE’s      41.9        27.0       18.9         63.3

SOURCES: BES: GA-17 and GA-13
DOL: Annual Final Target reports
